No. 19-369

IN THE

'upreme Court of the 1niteb btate0
FORD MOTOR COMPANY,
v.

Petitioner,

ADAM BANDEMER,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Minnesota

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,994 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 4, 2019.

, /
Cohn CaseyC3ogan
Wilson-Epes Printing Co., Inc.

